20-1
IN THE

Supreme Court of the United States
SuPrem

George Berka,
Petitioner,

niED 1 us.

JUH “ 4 2020

V.

OFFICE op

City of Middletown,
Respondent.
On a Petition for a Writ of Certiorari
to the Connecticut Appellate Court
PETITION FOR A WRIT OF CERTIORARI
Appearances:
For the Petitioner:
George Berka,
57 Concord St.
Waterbury, CT 06710
(203) 681-7035

June 4th, 2020

For the Respondent:
Brig Smith,
General Counsel
City of Middletown
245 DeKoven Dr.
Middletown, CT 06457
(860) 638-4820

Iy§CLERK

QUESTION PRESENTED
Should appeal instructions have been included with the subject, February 14th, 2018
Blight Citation that the Defendant City had issued to the Plaintiff?

TABLE OF CONTENTS
1

QUESTION PRESENTED..
TABLE OF AUTHORITIES

n

INTRODUCTION

1

OPINIONS BELOW

1

JURISDICTION

1

STATEMENT OF THE CASE

2

STATUTORY PROVISIONS INVOLVED

5

REASON FOR GRANTING THE PETITION

5

CONCLUSION

6

Page I i

TABLE OF AUTHORITIES
1. SC 190387, “Petition for Certification”, Filed: 02-21-2020, Disposed: 03-11-2020
2. AC 41902, “George Berka v. City of Middletown”, Filed: 07-24-2018, Disposed:
02-11-2020
3. MMX-CV18-5010739-S, “George Berka v. City of Middletown”, Filed: 03-22-2018,
Disposed: 07-20-2018

Page | ii

INTRODUCTION
This case pertains to a blight citation that the City of Middletown, Connecticut, had
issued to the Plaintiff for his two-family dwelling at 5 Maple Place in Middletown. The
Plaintiff disagrees with the blight citation, and wishes to dispute it. Since no appeal
instructions were included with the blight citation, the Plaintiff simply appealed it to
the Connecticut Superior Court. The Superior Court dismissed the Plaintiffs appeal for
lack of subject matter jurisdiction, because the Plaintiff had “failed to exhaust his
administrative remedies first”, by failing to request an appeal hearing for the blight
citation with the City first. However, the blight citation itself did not state that the
Plaintiff had the option to do this. So, how should the Plaintiff have known? Was it fair
and reasonable of the Superior Court to expect the Plaintiff to have known this? Should
the blight citation have included instructions about this?

OPINIONS BELOW
The opinions of the Connecticut Appellate Court (AC-41902) and the Connecticut
Superior Court (MMX-CV18-5010739-S) in this matter are listed in the Appendix. They
are also available on line at the Connecticut Judicial Branch web site.

JURISDICTION
The Connecticut Appellate Court had entered its judgment on February 11th, 2020, and
the Connecticut Supreme Court had denied a petition for certification (SC-190387) on
March 11th, 2020. Therefore, this Court’s jurisdiction is hereby invoked under 28 U.S.C.
§ 1254 (1).
Page I 1

STATEMENT OF THE CASE
On February 14th, 2018, the Defendant City of Middletown had issued to the Plaintiff a
blight citation for his 2-family property located at 5 Maple Place in Middletown, which
is shown on page A15 in the Appendix. The fairness, validity, appropriateness, and
constitutionality of this blight citation have been disputed at length in Matters MMXCV18-5010739-S, AC-41902, MMX-CV18-5010855-S, AC-42139, MMX-CV18-5010856-S,
and AC-43853. Suffice it to say that the Plaintiff believes this blight citation to be
completely unfair, inappropriate, predatory, and, above all, unconstitutional.
The Plaintiff disagrees with this blight citation and wishes to dispute it. Since the
citation did not contain any instructions on how to dispute or appeal it, the Plaintiff
simply appealed it to the Middletown Superior Court, under Docket # MMX-CV185010739-S. The Defendant City had then filed a motion to dismiss the appeal for lack of
subject matter jurisdiction, because the Plaintiff had failed to “exhaust his
administrative remedies” prior to appealing the matter to the Superior Court.
Specifically, the Plaintiff had filed his appeal before the “Failure to Pay Fines Notice”
had been issued to him, and before a hearing was conducted on the matter with a
citation hearing officer. The Superior Court, siding with the City, had then dismissed
the Plaintiffs appeal for lack of subject matter jurisdiction, and the Appellate Court had
recently upheld the Superior Court’s' decision in Matter # AC-41902, which brings us to
this Petition for Certification.
On page 3 of the blight citation (page A18 in the Appendix), there is a mention of a
blight lien if the defendant (home owner) fails to pay the fines within (15) days of the
issuance of the citation, as well as certain additional fines of up to $250 per day, and a
Page | 2

brief discussion of the City’s “right” to enter a blighted premises to abate any alleged
“violations”.
However, no matter how carefully one reads the blight citation, there is not one iota of
information describing how to dispute or appeal the citation, if one wishes to do so.
There is no mention of having to wait for the “Notice of Failure to Pay Fines , and no
mention of a hearing before a Citation Hearing Officer. In the absence of any such
appeal instructions, what is a lay person (non-lawyer) to do?
In the absence of any appeal instructions, a lay person would likely do what he or she
believes to be reasonable, which is to appeal the blight citation directly to the
Connecticut Superior Court.
And this is the key question before the U.S. Supreme Court here today - “Is it sufficient
for a home owner’s direct appeal of a matter such as this to the Connecticut Superior
Court to simply be “reasonable”, even if it does not strictly comply with the letter of the
law (§7-152c)?”

-

In its opinion recently issued in another related Matter, AC-42139, the Connecticut
Appellate Court had held that the trial court had “failed to construe the selfrepresented plaintiffs complaint in the broad and realistic manner as required by our
case law” (page A8 in the Appendix).
Therefore, the plaintiff asks, “should the trial court have also construed the selfrepresented plaintiffs direct (even if premature) appeal of the blight citation (Docket
No. MMX-CV18-5010739-S) in a more “broad and realistic manner”, m the absence of
any appeal instructions?

Page I 3

If this court finds that the Plaintiffs actions were simply “reasonable”, even,though,

(.

they may not have complied strictly with the provisions of §7-152c of the Connecticut
General Statutes, the blight citation should be dismissed, and its associated fines
should be vacated.
Finally, it is also worth noting that a separate violation issued to the Plaintiff by the
Defendant City’s health department in 2014 did contain instructions on how to appeal
it, as shown on page A19 in the Appendix. These instructions, entitled “RIGHT OF
APPEAL”, were about one page long, and clearly instructed the defendant (home owner)
about what to do if they wished to dispute the violation. Did the City of Middletown set
a precedent for the general public by including these appeal instructions on some of its
health code violations? Should this blight citation have also included similar
instructions, which, at the very least, should have mentioned either the requirement for
the home owner to wait for the “notice of failure to pay fines” to be issued, and to then
attend a hearing before a citation hearing officer, before having the opportunity to
appeal the citation to the Superior Court?

• .

•

■

In any event, the Plaintiff believes that the strict provisions of §7-152c should either be
relaxed for future self-represented appellants of these municipal enforcement matters,
or that the trial courts should treat these types of appeals in a more “broad and
realistic” manner, as specified in our case law, especially in the absence of any
sufficiently detailed or specific appeal instructions.

Page | 4

■s. •*

'

. STATUTORY PROVISIONS INVOLVED

Section 7-152c of the Connecticut General Statutes, which pertains to the hearing
procedures for municipal citations, is relevant to this matter. Also relevant are general
internal procedures at Connecticut municipalities, which spell out the specific
procedures. The Petitioner believes that these procedures should be amended to
require that adequate appeal instructions be included with any blight citations.

REASON FOR GRANTING THE PETITION
The Petitioner believes that this Cqurt should grant this petition for the following
reason:
This matter is of somewhat significant public importance because it poses a key
question of whether existing procedures at Connecticut municipalities, and Section 7152c of the Connecticut General Statutes, violate the public’s right to due process, by
failing to include written appeal instructions with blight citations. The appeals of many
appellants were possibly “cut short” by the cities’ failure to provide these instructions,
and a review of their cases by the Superior Court was subsequently denied to them.
This may have been a violation of their right to full due process of law, because some of
them may have possibly prevailed in their appeals at the Superior Court. This issue is
of particular importance for self — represented appellants, many of whom find
themselves drawn into these matters with no legal training, are forced to run a
difficult gauntlet”, and are often denied access to full due process of law because of legal
technicalities they should not be expected to know. Providing especially these
appellants with brief written instructions on how to appeal their blight citations, first
Page | 5

with the City, and then at the Superior Court, would be an important step toward
helping safeguard their right to due process, and would not create an undue burden on
the municipalities.

CONCLUSION
In light of the above, the Petitioner hereby requests this Court to grant his Petition for
a Writ of Certiorari.
Respectfully submitted,

George Berka,
Petitioner
June 4th, 2020

Page I 6

